Staci J. Riordan
Partner
sriordan@nixonpeabody.com
Nixon Peabody LLP
300 S. Grand Avenue, Suite 4100
Los Angeles, CA 90071-3151
213-629-6000

March 4, 2021
The Honorable Scott Harris
Clerk, Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Unicolors, Inc. v. H & M Hennes & Mauritz LP, No. 20-915

Dear Mr. Harris:
This office represents the Respondent, H&M Hennes & Mauritz LP, in the above-referenced
matter.
On February 9, 2021, you issued a letter requesting that Respondent file a response to the petition
for writ of certiorari not later than March 11, 2021. Respondent respectfully requests, under Rules
15.3 and 30.4, an extension of twenty-one days, to and including April 1, 2021, to file its brief in
opposition.
We have contacted Petitioner’s counsel on Monday, March 2nd, and again today to advise them
of our intention to seek an extension. To date we have not received a response from Petitioner and
we are, therefore, unable to provide the Court with Petitioner’s position.
This extension is necessary due to ongoing difficulties relating to COVID-19, which has
complicated counsel’s preparations and impaired coordination with the client.
As indicated by the enclosed certification of service, we have concurrently served a copy of this
letter upon counsel for the Petitioner.
Thank you for your consideration of this request.
Very Truly Yours,

Staci J. Riordan
Nixon Peabody LLP
cc:

Scott Burroughs, Esq.

4815-4282-2879.4

